HHS/OIG, Audit -"City of Chicago's Efforts to Account for and Monitor Sub-Recipients' Use of Public Health Preparedness and Response to Bioterrorism Program Funds - Department of Public Health,"(A-05-03-00088)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"City of Chicago's Efforts to Account for and Monitor Sub-Recipients' Use of Public Health Preparedness and Response
to Bioterrorism Program Funds - Department of Public Health," (A-05-03-00088)
November 20, 2003
Complete
Text of Report is available in PDF format (275 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this review were to determine whether the Chicago Department of Public Health (Department): (i) properly
recorded, summarized and reported bioterrorism preparedness transactions by specific focus areas designated in the cooperative
agreements and (ii) whether the Department had controls and procedures to monitor sub-recipient expenditures of Centers
for Disease Control and Prevention (CDC) funds.  We found that the Department generally accounted for program funds
in accordance with the terms and conditions of the cooperative agreement and applicable departmental regulations and guidelines,
with two exceptions.  During Year 1 of the Program, the Department did not record, summarize and report transactions
by specific focus area.  We verified that the Department took corrective action and segregated expenditures by focus
area during the succeeding Program years.  In addition, Year 3 original and supplemental funds were not segregated
in the accounting system.  Although the cooperative agreement does not require separate accounting for original and
supplemental funds, separate reporting of the funds is required.  We recommended the Department implement procedures
to record, summarize, and report expenditures for original and supplemental grant funds separately.  Department officials
generally concurred with our findings and recommendation.